                                                 NAnONAL SCIENCE FOUNDA nON
                                                  OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESnGA nONS

                                             CLOSEOUT MEMORANDUM

Case Number: 110110054                                                                      Page 1 of 1



         On 11/22/2010 we received an allegation that a student 1 at a University2 forged time sheets3 and
         fraudulently received payment4 from an NSF sub-award.5 We determined that the student made
         full restitution6 and was disciplined by the University.7 No charges were filed.

         As a result of this matter, University altered its policies and procedures to ensure that such a
         situation is unlikely to reoccur. In addition the University made the NSF sub-award whole. 8
         Because the University's actions were sufficient to protect NSF funds, no further action will be
         taken.

         Accordingly, this case is closed.




NSF OIG Fonn 2 (11/02)
